No.

ae

IN THE
Supreme Court of the Wnited States

 

Petitioner,
Ve
CRAIG KOENIG, WARDEN,
Respondent.

CERTIFICATE OF SERVICE

 

I, Elizabeth Richardson-Royer, counsel appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. § 8006A(a)(2)(B), hereby certify that on
April 19, 2021 a copy of the foregoing Motion for Leave to Proceed In Forma
Pauperis and Petition for Writ of Certiorari to the United States Court of

Appeals for the Ninth Circuit was mailed postage prepaid to:

Gregory A. Ott, Deputy Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004

also served Mr. Ott a copy of the above-described documents by email at
Gregory.Ott@doj.ca.gov. All parties require to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct to the best of my

knowledge. Executed this 19th day of April, 2021 at Chapel Hill, North Carolina.

    

ve
ELIZABETH RICHAR’ ON-ROYER*
Attorney for Petitioner

*Counsel of Record
